u.

ENTRY ORDER
VERMONT SUPREME COURT
FILED IN CLERK'S OFFICE

SUPREME COURT DOCKET NO. 2020-162

JUN 1 5 2020

JUNE TERM. 2020
SNFFRESHSTART. LLC* & Fuad
Ndibalema* v. Mark A. Levine

,

APPEALED FROM:

}
i

j

}

Superior Court. Washington Unit
Civil Division

t

}

}

DOCKET NO. 130-3-19 Wncv

In the above-entitled cause, the Clerk will enter:
The trial court denied plaintiffs request for permission to take an interlocutory appeal. To
the extent that plaintiff seeks such permission from this Court, that request is denied as plaintiff
fails to satisfy the requirements of V.R.A.P. 5(b). This appeal is therefore dismissed.

BY THE COURT:

OhA, I •fg^gg\-----Paul L. Reiber. Chief Justice

Beth Robinson, Associate Justice
/
T

<Harold E. Edton, Jr., Associate Justice

reh R. Carroll, Associate Justice

Witham D. Cohen, Associate Justice

Aft- © P. i-1

ENTRY ORDER
SUPREME COURT DOCKET NO. 2020-162

VERMONT SUPREME COURTFILED IN CLERK'S OFFICE

JUL 1 7 2020
JULY TERM. 2020
SNFFRESHSTART, LLC* & Fuad
Ndibalema* v. Mark A. Levine

i.
i

APPEALED FROM:

i

)
}
}
}
\

Superior Court. Washington Unit
Civil Division

i

}

DOCKET NO. 130-3-19 Wncv

In the above-entitled cause, the Clerk will enter:
Appellants’ motion for reconsideration is denied.

BY THE COURT:
Paul L.l^iifei-^QnefUustice
Ckk

Beth Robinson, Associate Justice

ilMj.
/Harold E. Eaton, Jr., Associate Justice

Carroll, Associate Justice

William D. Cohen, Associate Justice

(

I"

"r•:; ir? rnuRi
STATE GF VERMONT
SUPERIOR COURT

Washington Unit

CIVIL DIVISION
Docket No. 130-3-19 Wncv

\a )

020 M 3
SNFFRESHSTARTART, LLC,
Fuad Ndibalema,
Plaintiffs
c* s I
v.

\

V> y U-

cr n

Mark A. Levine,
Defendant

Opinion and Order on Motion to Dismiss
Plaintiff brings this action apparently challenging some conduct of
Defendant. He has filed an initial Complaint, an Amended Complaint, and a
number of motions for injunctive relief. Defendant moved to dismiss the initial
Complaint and, now, has moved to dismiss the Amended Complaint under Vt. R.
Civ. P. 12(b)(6). He argues that it fails to state a cognizable claim for relief. The
Court makes the following determinations.
The Vermont Supreme Court disfavors Rule 12(b)(6) motions to dismiss.
“Dismissal under Rule 12(b)(6) is proper only when it is beyond doubt that there
exist no facts or circumstances consistent with the complaint that would entitle
Plaintiff to relief.” Bock v. Gold, 2008 VT 81, f 4, 184 Vt. 575, 576 (mem.) (quoting
Union Mut. Fire Ins. Co. v. Joerg, 2003 VT 27, H 4, 175 Vt. 196, 198)). In
considering a motion to dismiss, the Court “assume [s] that all factual allegations
pleaded in the complaint are true, acceptfs] as true all reasonable inferences that
may be derived from plaintiff's pleadings, and assumejs] that all contravening

1

*

Defendant must be able to evaluate and respond to the complaint as a freestanding
document, without resort to paging through accompanying motions.
That does not mean that a complaint needs to be lengthy or full of legal
citations and jargon. Just the opposite. All that is required is that it provide “(1) a
short and plain statement of the claim showing that the pleader is entitled to relief,
and (2) a demand for judgment for the relief the pleader seeks.” Vt. R. Civ. P. 8.
The present Amended Complaint fails to do so and fails to provide the minimal
information necessary to understand the claims Plaintiff is raising. While Plaintiff
is representing himself, he is still “bound by the ordinary rules of civil procedure.”
Vahlteich v. Knott, 139 Vt. 588, 590-591 (1981).
Nonetheless, while dismissal is a possible remedy under such
circumstances, the Court is cognizant that Plaintiff is pro se and, mixed somewhere
in the voluminous filings to date, there may be a cognizable claim or claims. An
alternative to dismissal is available. Under Vt. R. Civ. P. 12(e), if a complaint “is so
vague or ambiguous that a party cannot reasonably be required to frame a
responsive pleading,” the Court can order a plaintiff to file a new complaint that
comports with Rule 8. The Court will do that in this case. Additionally, until a
complaint has been filed to which Defendant files an Answer or that withstands a
motion to dismiss, the Court will not entertain requests for injunctive relief. Once
such an actionable complaint is before the Court, Plaintiff may either move forward
with discovery or file additional motions.
WHEREFORE, per Civil Rules 8 and 12(e), Plaintiff shall submit a Second
Amended Complaint consistent with this opinion within 21 days. Defendant shall

3

